No. 19-247
In the Supreme Court of the United
__________________

States

CITY OF BOISE, IDAHO,
Petitioner,
v.
ROBERT MARTIN, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

__________________

AMICUS CURIAE BRIEF OF THE INTERNATIONAL
MUNICIPAL LAWYERS ASSOCIATION, NATIONAL
LEAGUE OF CITIES, NATIONAL ASSOCIATION OF
COUNTIES, INTERNATIONAL CITY/COUNTY
MANAGEMENT ASSOCIATION, WASHINGTON STATE
ASSOCIATION OF MUNICIPAL ATTORNEYS,
WASHINGTON ASSOCIATION OF SHERIFFS AND
POLICE CHIEFS, AND WASHINGTON STATE SHERIFFS
ASSOCIATION IN SUPPORT OF PETITIONER

__________________

RICHARD DOYLE
City Attorney
NORA FRIMANN
Assistant City Attorney
KATHRYN J. ZOGLIN
Senior Deputy City Attorney
Counsel of Record
MAREN J. CLOUSE
Senior Deputy City Attorney
Office of the City Attorney
200 East Santa Clara Street, 16th Floor
San José, California 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov
Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I. Review Should Be Granted Because the Ninth
Circuit Improperly Expands the Reach of the
Eighth Amendment and Impinges on the Broad
Police Powers of Local Governments . . . . . . . . . . 5
A. The Martin Court Improperly Extends the
Eighth Amendment . . . . . . . . . . . . . . . . . . . . . 5
B. Martin Hampers Local Governments’ Ability
to Protect Their Communities . . . . . . . . . . . . 7
1. Spokane, Washington . . . . . . . . . . . . . . . . 8
2. San José, California . . . . . . . . . . . . . . . . . 11
3. Spokane Valley, Washington . . . . . . . . . . 14
4. Olympia, Washington . . . . . . . . . . . . . . . 15
II. Martin Sows Uncertainty for Local Governments
and Is Unworkable . . . . . . . . . . . . . . . . . . . . . . . 17
A. Martin Introduces Undefined Standards into
its Eighth Amendment Analysis. . . . . . . . . . 17
B. Martin’s Articulated Standards are
Unworkable as a Practical Matter . . . . . . . . 18

ii
III.

Martin’s Construction of Status, as Opposed
to Conduct, Leads to Untenable Results . . . 22

IV.

Responses to the Intractable Challenges of
Homelessness Are Best Addressed by
Policymakers . . . . . . . . . . . . . . . . . . . . . . . . . 23

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF AUTHORITIES
CASES
Brogan v. United States,
522 U.S. 398 (1998). . . . . . . . . . . . . . . . . . . . . . . 25
Day-Brite Lighting Inc. v. State of Missouri,
342 U.S. 421 (1952). . . . . . . . . . . . . . . . . . . . 24, 25
District of Columbia v. Brooke,
214 U.S. 138 (1909). . . . . . . . . . . . . . . . . . . . . . . . 7
Douglas Heay, et al., v. City of Olympia,
Thurston County Superior Court
No. 18-2-06080-34 . . . . . . . . . . . . . . . . . . . . . . . . 17
Eubank v. City of Richmond,
226 U.S. 137 (1912). . . . . . . . . . . . . . . . . . . . . . . . 7
Gonzales v. Oregon,
546 U.S. 243 (2006). . . . . . . . . . . . . . . . . . . . . . . . 8
Ingraham v. Wright,
430 U.S. 651 (1977). . . . . . . . . . . . . . . . . . . . . . 5, 6
Jones v. City of Los Angeles,
444 F.3d 118 (9th Cir. 2006), vacated,
505 F.3d 1006 (9th Cir. 2007). . . . . . . . . . . . . 6, 22
Kovacs v. Cooper,
336 U.S. 77 (1949). . . . . . . . . . . . . . . . . . . . . . . . . 7
Martin v. City of Boise,
920 F.3d 584 (9th Cir. 2019). . . . . . . . . . . . passim
New State Ice Co. v. Liebmann,
285 U.S. 262 (1932). . . . . . . . . . . . . . . . . . . . . . . 25

iv
Orange County Catholic Worker, et al. v. County of
Orange, U.S. District Court Case
No. 8:18:cv-00155-DOC-JDE (C.D. Cal.) . . . . . . 21
Powell v. Texas,
392 U.S. 514 (1968). . . . . . . . . . . . . . . . . . 6, 23, 24
Robinson v. California,
370 U.S. 660 (1962). . . . . . . . . . . . . . . . . . . . . . . . 6
San Francisco Baykeeper v. City of San José,
U.S. District Court Case No. 15-CV-00642-BLF
(N.D. Calif.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Sligh v. Kirkwood,
237 U.S. 52 (1915). . . . . . . . . . . . . . . . . . . . . . . . . 7
Tenn. Wine & Spirits Retailers Ass’n v. Thomas,
139 S. Ct. 2449, 204 L. Ed. 2d 801 (2019) . . . . . 25
Tobe v. City of Santa Ana,
9 Cal.4th 1069 (1995) . . . . . . . . . . . . . . . . . . 24, 25
Vannucci v. County of Sonoma,
U.S. District Court, Case No. 18-cv-01955 VC
(N.D. Cal.) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
CONSTITUTION
U.S. Const. amend. VIII. . . . . . . . . . . . . . . . . . passim
CODES
Olympia, Wash., Code § 9.16.180 . . . . . . . . . . . . . . 16
Olympia, Wash., Code § 12.74.010 . . . . . . . . . . . . . 15
San José, Cal., Code § 10.20.150 . . . . . . . . . . . . . . . 12

v
Spokane, Wash., Code §§ 12.02.1000, et seq. . . . . . 10
Spokane, Wash., Code § 12.02.1010(D) . . . . . . . . . . . 8
OTHER AUTHORITIES
Annual Homeless Report & Homeless Emergency
Assistance Program (Oct. 22, 2018),
http://www.sanjoseca.gov/documentcenter/view
/80974 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
City of San Jose Homeless Census & Survey (2019),
at https://www.sanjoseca.gov/DocumentCenter/
View/85898 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Comito, Barbara, Union Gospel Mission, “Cleaning
Up Homeless Encampments,” UGM (blog), 5
June 2019, https://blog.uniongospelmission.org/
the-impact/cleaning-up-homeless-encampments
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
“Downtown & Northeast Community Court Eligible
Offenses” at Spokane Municipal Court website,
https://static.spokanecity.org/documents/munic
ipalcourt/therapeutic/community-court/commun
ity-court-eligible-offenses-2017-12-11.pdf . . . . . . 8
Epperly, Emma, “Booby trap injures city worker
cleaning out illegal camp,” The SpokesmanReview, 8 Aug. 2019, https://www.spokesman.
com/stories/2019/aug/28/booby-trap-injures-cityworker-cleaning-out-illega/. . . . . . . . . . . . . . . . . 11

vi
“Homeless Census Survey, Comprehensive Report,”
Santa Clara County (2019), pp. 25-26 at
https://www.sccgov.org/sites/osh/Continuumof
Care/ReportsandPublications/Documents/2015
%20Santa%20Clara%20County%20Homeless%
20Census%20and%20Survey/2019%20SCC%20
Homeless%20Census%20and%20Survey%20Re
port.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
https://www.nbcbayarea.com/news/local/HomelessCamp-Near-East-Oakland-School-SparksBacklash-558377631.html . . . . . . . . . . . . . . . . . . 4
https://www.sanjoseca.gov/DocumentCenter/View/
85899 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
https://www.theatlantic.com/health/archive/2019/
03/typhus-tuberculosis-medieval-diseasesspreading-homeless/584380/. . . . . . . . . . . . . . . . . 4
Roley, Amanda, KREM 2 Spokane News, “City of
Spokane launches project to coordinate homeless
camp clean-ups,” 5 Feb. 2019,
https://www.krem.com/article/news/local/city-ofspokane-launches-project-to-coordinatehomeless-camp-clean-ups/293-5d95345d-4de0406a-b7fe-85b9bdf36a39. . . . . . . . . . . . . . . . . 9, 10
Spokane City Council “Briefing Paper and Fiscal
Note” regarding SMC §§ 12.02.1000, et seq.,
available at https://static.spokanecity.org/docum
ents/citycouncil/advance-agendas/2018/04/citycouncil-advance-agenda-2018-04-30.pdf . . . . . . 10

vii
Spokane Municipal Court, “City of Spokane
Community Court” brochure at
https://my.spokanecity.org/courts/municipalcourt/therapeutic/ . . . . . . . . . . . . . . . . . . . . . . . . . 9
“The Annual Homeless Assessment Report to
Congress,” U.S. Department of Housing and
Urban Development (Dec. 2018), at
https://files.hudexchange.info/resources/docum
ents/2018-AHAR-Part-1.pdf . . . . . . . . . . . . . . . . . 3
Union Gospel Mission: Our Doors Are Open,” 22
April 2019, https://blog.uniongospelmission.org/
the-impact/union-gospel-mission-our-doors-areopen . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
INTERESTS OF AMICI CURIAE1
Established in 1935, the International Municipal
Lawyers Association (“IMLA”) is the oldest and largest
association of attorneys representing United States
municipalities, counties, and special districts. IMLA’s
mission is to advance the responsible development of
municipal law through education and advocacy by
providing the collective viewpoint of local governments
around the country on legal issues before state and
federal appellate courts.
The National League of Cities (“NLC”) is the
country’s largest and oldest organization serving
municipal governments and represents more than
19,000 cities and towns in the United States. NLC
advocates on behalf of cities on critical issues that
affect municipalities and warrant action.
The National Association of Counties (“NACo”) is
the only national organization that represents county
governments in the United States. NACo provides
essential services to the nation’s 3,069 counties
through advocacy, education, and research.
The International City/County Management
Association (“ICMA”) is a nonprofit professional and
educational organization of over 9,000 appointed chief
1

Pursuant to Supreme Court Rule 37.6, amici curiae state that no
counsel for any party authored this brief in whole or in part, and
no entity or person aside from counsel for amicus curiae made any
monetary contribution toward the preparation and submission of
this brief. Pursuant to Supreme Court Rule 37.2, amici curiae
state that counsel for all parties received notice and have
consented to the filing of this brief.

2
executives and assistants serving cities, counties,
towns, and regional entities. ICMA’s mission is to
create excellence in local governance by advocating and
developing the professional management of local
governments throughout the world.
The Washington State Association of Municipal
Attorneys (“WSAMA”) is a non-profit organization of
municipal attorneys in Washington State representing
the over 280 municipalities throughout the state.
The Washington Association of Sheriffs and Police
Chiefs (“WASPC”) is a non-profit representing
management personnel from Washington State law
enforcement agencies, including county sheriffs, city
and town police chiefs, executives of the Washington
State Patrol and Department of Corrections, and
representatives of federal and tribal law enforcement
agencies. WASPC’s mission is to foster collaboration
among law enforcement executives to enhance public
safety.
It develops industry best practices and
standards, including a comprehensive approach to
homelessness.
The Washington State Sheriffs Association
(“WSSA”) represents the 39 elected Sheriffs of
Washington State. WSSA’s mission is to promote
ethics, professionalism, leadership development,
training, and dialogue among its members and the law
enforcement community.
The decision in Martin v. City of Boise, 920 F.3d 584
(9th Cir. 2019), is of significant concern to local
governments nationwide and represents an
unwarranted departure from established law in its

3
application of the Eighth Amendment to invalidate a
municipal ordinance banning anyone from camping on
public property. The broad pronouncements in that
decision unduly impinge on local governments’
authority to exercise their police powers to protect the
public and public property from risks to health and
safety. The court imposes impracticable requirements
on local governments working to address the homeless
issue. In addition, Martin’s overbroad, and at times
contradictory, language creates confusion for local
governments as they try to interpret and apply the
decision as they serve homeless individuals and others
in their communities.
SUMMARY OF ARGUMENT
According to U.S. Department of Housing and
Urban Development statistics, 552,830 people
experienced homelessness in the United States on a
single day in January 2018; 35% of them reside in the
Ninth Circuit.2 The reasons for homelessness are
multi-fold, including the financial crisis of 2008, rising
housing costs, mental illness, drug and alcohol abuse,
and unemployment. A number of sub-populations
make-up the homeless, including families; those
suffering from alcoholism, drug addiction, and mental
illness; and the chronically homeless. Approaches to
address homelessness have evolved over time. It is no
longer seen solely as a criminal law enforcement
problem. Nor is it simply a housing issue, given that
2

“The Annual Homeless Assessment Report to Congress,” U.S.
Department of Housing and Urban Development (Dec. 2018), pp.
10, 14 at https://files.hudexchange.info/resources/documents/2018AHAR-Part-1.pdf.

4
many homeless individuals require services beyond
housing. Local governments are devoting significant
resources to these seemingly intractable problems,
taking different approaches depending on the
situations in their communities.
Local governments have limited resources, however.
While working to ease the plight of homeless
individuals, local governments are also dealing with
negative consequences of large numbers of people
camping on public property. These impacts include
public health and safety problems: unmanaged human
waste, garbage, discarded drug paraphernalia, camping
fires, blocked sidewalks and open spaces, and blight.
Encampments are frequently marked by outbreaks of
contagious diseases, vermin, and crime.3 Nearby
residents and businesses complain that these problems
negatively affect the community and render some
public property unusable by the general public.4
In Martin v. City of Boise, 920 F.3d 584 (9th Cir.
2019), the Ninth Circuit applied the Eighth
Amendment proscription on cruel and unusual
punishment well beyond what the Constitution’s
framers intended or how it has been interpreted by this
Court. Further, Martin improperly restricts local
governments’ ability to exercise their broad police
powers to safeguard the health, safety, and welfare of
their communities. Not only is the decision confusing,
but it is unworkable as a practical matter. The difficult
3

See https://www.theatlantic.com/health/archive/2019/03/typhustuberculosis-medieval-diseases-spreading-homeless/584380/.

4

See https://www.nbcbayarea.com/news/local/Homeless-CampNear-East-Oakland-School-Sparks-Backlash-558377631.html.

5
issue of homelessness is better left to local
policymakers to determine the most appropriate
responses rather than to the judiciary.
There is no question that more needs to be done to
address the root causes of homelessness, ensure that
all have adequate shelter, and remedy unsafe living
conditions. At the same time, local governments are
responsible for the health and safety of all their
constituents. Local governments need more tools, not
fewer, to deal with these challenges. The Martin
decision constrains local governments’ ability to
address one of the most challenging problems they face.
ARGUMENT
I. Review Should Be Granted Because the Ninth
Circuit Improperly Expands the Reach of the
Eighth Amendment and Impinges on the
Broad Police Powers of Local Governments
A. The Martin Court Improperly Extends the
Eighth Amendment
In Martin, the Ninth Circuit applied the Eighth
Amendment beyond how it has ever been interpreted
by this Court.
“[E]very decision of this Court
considering whether a punishment is ‘cruel and
unusual’ within the meaning of the Eighth and
Fourteenth Amendments has dealt with a criminal
punishment.” Ingraham v. Wright, 430 U.S. 651, 666
(1977). The Eighth Amendment is rarely used to limit
the scope of conduct that can be punished, and in those
rare cases, it is “to be applied sparingly.” Id. at 667.

6
By contrast, the Martin court proceeded on the
premise that ordinances making it a misdemeanor to
camp on public property criminalize an unavoidable
consequence of the status of being homeless. It
concluded the Eighth Amendment “bars a city from
prosecuting people criminally for sleeping outside on
public property when those people have no home or
other shelter to go to.” Martin, 920 F.3d at 603. In so
doing, the Ninth Circuit expanded the Eighth
Amendment to include the mere citation of individuals
for violations of anti-camping ordinances: “For those
rare Eighth Amendment challenges concerning the
state’s very power to criminalize particular behavior or
status, then, a plaintiff need demonstrate only the
initiation of the criminal process against him, not a
conviction.” Id. at 614 (emphasis added).
The Martin court purported to base its decision on
a plurality opinion of this Court in Powell v. Texas, 392
U.S. 514 (1968), and on Jones v. City of Los Angeles,
444 F.3d 118 (9th Cir. 2006), vacated, 505 F.3d 1006
(9th Cir. 2007), even though the latter opinion was
vacated and is not binding. Martin expands without
any legal justification this Court’s more limited holding
in Robinson v. California, 370 U.S. 660, 666-67 (1962),
that the Eighth Amendment prohibits criminalizing the
condition of drug addiction when a person does not also
engage in the conduct of possessing or using drugs. As
Judge Smith articulated in explaining why the Ninth
Circuit should re-hear the case en banc, the Martin
court’s ruling is inconsistent with Ingraham and takes
the Ninth Circuit “far afield” from the purpose of the
Eighth Amendment. Martin, 920 F.3d at 599.

7
B. Martin Hampers Local Governments’
Ability to Protect Their Communities
The Ninth Circuit’s opinion in Martin disregards
public health and safety impacts of homeless
encampments as well as the power and responsibility
of local governments to address those problems. The
decision thus impinges on the well-established police
powers reserved to states and local governments.
This Court has long upheld the broad authority of
state and local governments to exercise their police
powers. For example, in Eubank v. City of Richmond,
226 U.S. 137 (1912), the Court explained the broad
reach of municipal police powers, which extend “not
only to regulations which promote the public health,
morals, and safety, but to those which promote the
public convenience or the general prosperity.” Id. at
142. In addition, “‘[i]t is the most essential of powers,
at times the most insistent, and always one of the least
limitable of the powers of government.’” Id. at 142-43
(quoting District of Columbia v. Brooke, 214 U.S. 138,
149 (1909)). This Court continued that “[g]overnmental
power must be flexible and adaptive.” Eubank, 226
U.S. at 143. Accord Kovacs v. Cooper, 336 U.S. 77, 83
(1949) (“The police power of a state extends beyond
health, morals and safety, and comprehends the duty,
with constitutional limitations, to protect the wellbeing and tranquility of a community”); Sligh v.
Kirkwood, 237 U.S. 52, 58-59 (1915) (“The limitations
upon the police power are hard to define, and its farreaching scope has been recognized in many decisions
of this court”; “The police power, in its broadest sense,
includes all legislation and almost every function of

8
civil government”). Moreover, local governments have
“great latitude under their police powers to legislate as
to the protection of the lives, limbs, health, comfort,
and quiet of all persons.” Gonzales v. Oregon, 546 U.S.
243, 270 (2006) (quotations and citations omitted).
The Ninth Circuit ruling limits and, in some cases,
eliminates the tool of criminal sanctions from local
governments as they work to protect the health, safety,
and welfare of the public. Below are some examples of
the impact of Martin on municipalities.
1. Spokane, Washington
The Martin decision seriously undermines
Spokane’s ability to connect unsheltered individuals
with social services through its jail alternative court
system. Spokane’s Municipal Court established a
Community Court docket, a criminal justice initiative
addressing low level non-violent misdemeanor crimes.
The list of Community Court eligible offenses includes
misdemeanors such as disorderly conduct, open
consumption, urinating/defecating in public, sidewalk
sitting/lying, and unauthorized camping on public
property.5
Jail is not the mission of Community Court.
Rather, individuals cited for eligible offenses such as
illegal camping are referred directly to Community
Court, where they access social services while they
5

See “Downtown & Northeast Community Court Eligible Offenses”
at Spokane Municipal Court website, https://static.spokanecity.org/
documents/municipalcourt/therapeutic/community-court/commun
ity-court-eligible-offenses-2017-12-11.pdf. See Spokane, Wash.,
Code § 12.02.1010(D).

9
commit to community service. Community Court
works with social service providers who connect
defendants with a range of services, including
assistance with food, clothing, health care and
insurance, education and job training, behavioral
health, and government assistance.6 The Martin
decision prevents Spokane from issuing the criminal
citations that require participation in these services. It
consequently seriously impairs Spokane’s ability to
connect individuals needing vital services through its
Community Court, which has a proven track record.
This situation underscores how local policymakers are
better situated than federal courts to determine the
most effective approaches to these problems.
Further, Spokane has a significant government
interest in using the criminal process to connect
homeless illegal campers with Community Court
services to help deter illegal encampments.
Encampments present public health and safety risks to
the public at large and campers themselves, and
addressing them requires significant public resources.
These risks arise from uncontained fires; improper
disposal of solid waste, including feces and hypodermic
needles; and other problems. In 2018, Spokane
received approximately 500 reports of homeless camps,
which cost approximately $100,000 to clean up.7
6

See Spokane Municipal Court, “City of Spokane Community
Court” brochure at https://my.spokanecity.org/courts/municipalcourt/therapeutic/.

7

See Roley, Amanda, KREM 2 Spokane News, “City of Spokane
launches project to coordinate homeless camp clean-ups,” 5 Feb.
2019, accessed 5 Sept. 2019, https://www.krem.com/article/news/

10
Cleanup teams include Spokane Department of Code
Enforcement employee crews, law enforcement officers,
and hauling/dump trucks.8 An estimated 1,000 pounds
of garbage per day is hauled out of homeless
encampments in Spokane.
The public health and safety risks of these
encampments include uncontained fires; improper
disposal of solid waste, including feces and hypodermic
needles; and damage to landscaping and critical
infrastructure such as bridge abutments and streets.9
At one encampment along the Spokane River, City staff
recently found a garbage pit fifteen feet across and four
feet deep, containing multiple five-gallon buckets filled
with human feces.10
The increasing presence of improvised and other
weapons at encampments poses yet another public
safety risk, including to the safety of City cleanup
crews. Almost all campers contacted reportedly conceal
at least one knife and many have uncapped, used
syringes. At one large encampment along the Spokane
River, officers located multiple edged weapons,
local/city-of-spokane-launches-project-to-coordinate-homelesscamp-clean-ups/293-5d95345d-4de0-406a-b7fe-85b9bdf36a39.
8

See Comito, Barbara, Union Gospel Mission (“UGM”), “Cleaning
Up Homeless Encampments,” UGM (blog), 5 June 2019, accessed
5 Sept. 2019, https://blog.uniongospelmission.org/the-impact/clean
ing-up-homeless-encampments.

9

See Spokane City Council “Briefing Paper and Fiscal Note”
regarding Spokane, Wash., Code §§ 12.02.1000, et seq., available
at https://static.spokanecity.org/documents/citycouncil/advanceagendas/2018/04/city-council-advance-agenda-2018-04-30.pdf.

10

See Comito, supra, note 8.

11
including knives, hatchets, and arrows. One city
employee assigned to a cleanup crew was injured when
he stepped on a concealed board with nails driven
through it used as a ‘booby-trap’ set up to protect an
illegal marijuana grow at a camp site. Several such
traps, resembling improvised spike strips, were laid
around the camp and trails.11
2. San José, California
The City of San José, the tenth largest city in the
country and home to over 6,000 homeless individuals,
looks to criminal enforcement as a last resort, when
outreach and warnings are ineffective in resolving
unsanitary or dangerous conditions at homeless
encampments.12 This tool is particularly important
when it comes to San José’s prerogative to issue
criminal citations to those, including the homeless, who
trespass in its watershed areas. The other tools at the
City’s disposal—such as outreach to homeless
individuals and maintaining fencing and other
barriers—are not always effective.
Homeless camps have repeatedly arisen along the
banks of Coyote Creek and the Guadalupe River. The
resulting trash and human waste are especially
problematic. Indeed, San José was sued in federal
court because of the increased fecal bacterial and trash
levels in these waterways and is under a federal court
11

See Epperly, Emma, “Booby trap injures city worker cleaning out
illegal camp,” The Spokesman-Review, 8 Aug. 2019, accessed 5
Sept. 2019, https://www.spokesman.com/stories/2019/aug/28/boobytrap-injures-city-worker-cleaning-out-illega/.

12

https://www.sanjoseca.gov/DocumentCenter/View/85899.

12
consent decree to reduce those levels.13 The allegations
centered on violations of the Clean Water Act, and as
a part of that consent decree, the City is to appropriate
at least $100 million to implement a Comprehensive
Load Reduction Plan to meet the Fecal Indicator
Bacteria load reduction standard.14 In other words, the
City must monitor and limit the amount of garbage and
human waste that enter local waterways.
Various City departments—from police to fire to
public works—regularly clear encampments, collect
and dispose of garbage and hazardous materials, and
maintain City infrastructure like damaged fencing and
bridges.15 The City’s municipal code prohibits anyone
from trespassing in watershed areas, under penalty of
fines and even jail time, and is a useful tool to prevent
abuse of these sensitive areas.16 In addition, more than
a third of the fire calls to which San José’s Fire
Department responded in the last fiscal year were
related to homeless individuals, including more than
40% of vegetation fires. Needless to say, fires
represent a significant concern in California.

13

San Francisco Baykeeper v. City of San José, U.S. District Court
Case No. 15-CV-00642-BLF (N.D. Calif.).

14

Id., Dkt. #51.

15

In its 2017-2018 fiscal year, San José removed 955 tons of
garbage from homeless camps. More than 80 percent of that
garbage was removed from waterways. Annual Homeless Report
& Homeless Emergency Assistance Program (Oct. 22, 2018),
http://www.sanjoseca.gov/documentcenter/view/80974.
16

San José, Cal., Code § 10.20.150.

13
San José works to assist people camping on public
land and to address the problems that often result from
homeless encampments.
It dispatches multidisciplinary teams from its housing department, who
speak with the homeless to understand their needs.
These teams provide the homeless with information
about housing and service options. City staff also
assess environmental needs like trash and sanitation
concerns. To protect public health and safety, as well
as to comply with the federal consent decree, the City
sometimes posts notices that a location must be
cleaned up, advising people camping there that they
must take their belongings and leave.
Despite San José’s efforts to connect homeless
individuals with supportive services, some refuse to
move from encampments.17 It is the City’s experience
that there is a population of long-term, chronically
homeless who refuse housing, whether due to mental
health issues; drug addiction; general opposition to
government services; shelter restrictions on pets, drug
or alcohol use; or other perceived limitations.18 In some
cases, homeless individuals who refuse services reestablish camps after the City has completed a cleanup
or set up camp on other public property. In these
circumstances, criminal sanctions for trespassing on
17

“Homeless Census Survey, Comprehensive Report,” Santa Clara
County (2019), pp. 25-26 at https://www.sccgov.org/sites/osh/Contin
uumofCare/ReportsandPublications/Documents/2015%20Santa
%20Clara%20County%20Homeless%20Census%20and%20Surve
y/2019%20SCC%20Homeless%20Census%20and%20Survey%20
Report.pdf.
18

See City of San Jose Homeless Census & Survey (2019), pp. 2122 at https://www.sanjoseca.gov/DocumentCenter/View/85898.

14
public property are useful to ensure that an area
remains clean and safe.
Yet under Martin, the City could be prevented from
enforcing its anti-trespassing ordinance, even in the
face of a consent decree mandating the cleanup of
waterways, if there are fewer shelter beds available
than the entire homeless population. Martin has thus
removed one of the tools available to maintain clean
and safe public areas in San José.
3. Spokane Valley, Washington
The City of Spokane Valley has a population of
nearly 100,000 and is the tenth largest city in
Washington. Spokane Valley contracts for a majority
of its services. It has agreements with Spokane County
for all public safety-related services, including law
enforcement, prosecution and public defense, court, and
jail services. The City also contracts with a private
company to provide all park maintenance and upkeep
services.
Further, Spokane Valley does not have homeless
shelters within its boundaries. Instead, its residents
contribute over a million dollars per year to a regional
Continuum of Care program to address regional lowincome housing issues. The resources to assist those
experiencing homelessness, such as mental health,
drug or alcohol addiction services, or financial
assistance, are located outside of Spokane Valley in
downtown Spokane. Spokane Valley funds homeless
services that are available nearby but not within its
borders.

15
As a result, Martin’s requirement that a jurisdiction
have shelter space available in order to enforce its laws
has effectively frozen Spokane Valley’s efforts to
enforce the “no camping” regulations in its parks.
Between 2018 and 2019, the number of homeless living
in Spokane Valley’s parks is estimated to have
increased over 325%. Two City parks have seen such
a significant increase in homeless camping that citizens
no longer visit the parks, the City has stopped
accepting reservations for park facilities, and the parks
have in effect become City-funded homeless
encampments. Impacts include increased garbage and
litter, illegal drug paraphernalia, human waste,
graffiti, direct damage to park facilities, other illegal
activities, and incidents of direct interference with
other park users, as well as increased City costs to
combat these problems. Spokane Valley only has
thirteen parks, and one of the affected parks is in the
center of the City. Thus, losing these two parks to
homeless campers has a significant negative impact on
the parks program and park users.
4. Olympia, Washington
Olympia, population 51,000, is the capital of
Washington State.
The homeless population in
downtown Olympia is in the hundreds. In July 2018,
the city declared a public health emergency related to
homelessness.
The City’s municipal code forbids camping on cityowned property, except with permission of the city
manager after a declaration of emergency has been
passed by City Council. Olympia, Wash., Code
§ 12.74.010. It also provides that no one shall obstruct

16
passage of pedestrians or vehicles in the downtown
commercial zone between certain hours. Id. § 9.16.180.
As a result of the Martin decision, Olympia has stopped
arresting the homeless for violating these criminal
provisions when committed on city-owned property,
parks, or sidewalks, except as a last resort.
As a result of the constraints of Martin, public
health issues have proliferated.
Homeless
encampments have no solid waste facilities and create
mountains of garbage in mere days. Although the City
provides some of these services even to unsanctioned
encampments, issues with human feces, garbage
(including drug paraphernalia), fire, damage to city
property, and vandalism of public infrastructure
abound.
Because of Martin, Olympia can no longer use its
publicly-owned property for the benefit of the public at
large unless it has provided the homeless an
alternative place to sleep. That task is anything but
simple. First, the number of shelter space openings is
fluid. Second, the City’s attempts to provide
transitional sites for the homeless is proving
insufficient, particularly given that Olympia is now
being advertised as a “homeless sanctuary.” Third,
many homeless individuals have no identification,
making it impossible to track whether an individual
was offered and declined an alternative to camping.
Members of the business community allege that the
lack of enforcement has negatively impacted their
businesses and economic development in downtown.
The City’s limited enforcement of these municipal code
violations post-Martin has even resulted in legal action

17
against Olympia.19 Whatever the merits of those
claims, the City must use limited public resources to
defend against these actions.
Moreover, they
demonstrate the extent to which the Martin decision
hampers Olympia’s ability to provide a safe, hospitable
environment for its constituents.
II. Martin Sows Uncertainty for
Governments and Is Unworkable

Local

A. Martin Introduces Undefined Standards
into its Eighth Amendment Analysis
While on the one hand Martin prohibits cities from
prosecuting those who sleep outside on public property
when there are more homeless persons than available
shelter beds, its footnote number 8 creates confusion
about how local governments can comply with the
ruling.20
In footnote 8, the Ninth Circuit panel qualifies its
holding, saying its ruling does not apply to those who
“have access to adequate temporary shelter, whether
because they have the means to pay for it or because it
is realistically available to them for free, but who
choose not to use it.” Martin, 920 F.3d at 617 n.8. It
continues: “Nor do we suggest that a jurisdiction with
insufficient shelter can never criminalize the act of
sleeping outside. Even where shelter is unavailable, an
19

Douglas Heay, et al., v. City of Olympia, Thurston County
Superior Court No. 18-2-06080-34.
20

That confusion is exacerbated by the circuit split that Martin
created, with local governments outside of the Ninth Circuit left
guessing whether their own anti-camping ordinances are unlawful.
See Petition at pp. 19-21.

18
ordinance prohibiting sitting, lying or sleeping outside
at particular times or in particular locations might well
be constitutionally permissible.” Id. (emphasis in
original). This language suggests municipalities may
do what the holding prohibits, although it fails to
explain when it would be permissible.
Further, this language adds an element: the
housing must be “adequate” or “sufficient.” But the
court fails to define these terms. The decision leaves
open a number of questions, such as what might be
considered “adequate” or “sufficient” housing or how
the different needs of people experiencing homelessness
might impact the analysis.
Martin itself suggests the analysis is complicated.
It argues—although it does not hold—that “adequate”
shelter must not be incongruous with an individual’s
religious beliefs. Martin, 290 F.3d at 609-10. But the
decision is silent about how a jurisdiction should weigh
religious beliefs in determining whether a particular
person has an “adequate” alternative to camping. Nor
does Martin explain how to evaluate the adequacy of
available shelter that an individual chooses not to
access on a given day. Indeed, named plaintiff Martin,
whose claims the Ninth Circuit allowed to proceed,
apparently had housing in another city but chose to
travel to Boise, where he was cited for camping. Id. at
606.
B. Martin’s Articulated Standards are
Unworkable as a Practical Matter
Even if those definitions were established, it would
still be impossible as a practical matter to issue

19
camping citations without risking running afoul of
Martin. The shelter availability prerequisite cripples
the ability of local governments to issue criminal
citations to the homeless for these offenses.
First, most jurisdictions cannot practically
determine how many homeless individuals reside
within their geographical jurisdiction on a daily basis.
It would be impossible to do so without dedicating costprohibitive staffing resources to conduct daily counts.
These counts would take the whole workday or longer,
rendering count data untimely and useless for the anticamping enforcement shelter count requirement. See
also Martin, 920 F.3d at 594-95 (Smith, J., dissenting
from denial of rehearing en banc).
Second, Martin seems to foreclose counting some
available housing options. Martin does not specify
whether a local government may rely on available beds
in neighboring cities within its metropolitan area. And
Martin prevents local governments from counting beds
at religious institutions. In Spokane, 286 shelter beds
at Union Gospel Mission may not be counted under
Martin because the shelter’s services involve religious
rites.21 Even if all available beds could be counted,
many municipalities simply lack the capacity to shelter
all who need it, notwithstanding efforts to increase
housing opportunities.
Third, even assuming a local government had
shelter capacity for all homeless individuals in its
21

See “Union Gospel Mission: Our Doors Are Open,” 22 April 2019,
accessed 5 Sept. 2019, https://blog.uniongospelmission.org/theimpact/union-gospel-mission-our-doors-are-open.

20
jurisdiction, it is unclear whether the Martin shelter
availability prerequisite means available shelter beds
for overnight sleeping or 24/7. In some jurisdictions,
shelters are not open 24 hours due to staffing or
janitorial needs. During these periods of closure, no
shelter beds are available. Nor does the decision help
answer other questions, such as whether law
enforcement may rely on notice of shelter availability
from the preceding night to cite an individual engaging
in illegal camping on public property the next day.
In short, it is impossible to determine whether an
individual has “an option of sleeping indoors,” Martin,
920 F.3d at 617, on any given day, and thus whether a
local jurisdiction is in a position to enforce its criminal
laws prohibiting camping. These issues are more than
theoretical and demonstrate Martin’s overbreadth.
The challenges local governments face in
understanding and complying with the Martin decision
are further underscored by settlement agreements or
consent decrees some jurisdictions have entered into in
the aftermath of the ruling. For example, in Vannucci
v. County of Sonoma, involving Sonoma County and the
City of Santa Rosa, California, the order entered into in
reaction to Martin sets forth:
[t]he adequacy of a shelter will depend on a
person’s individual circumstances, such as
mental disability, physical disability, gender,
sexual orientation, gender identity, essential
personal possessions, family status, possession
of a service animal or pet, religious or ethical
convictions, educational needs of any schoolaged children, proximity to employment,

21
proximity to medical or other social services, and
transportation needs.
For some people
(particularly those with certain mental health
conditions), a barracks-style placement may not
be adequate based on their individual
circumstances.22
Moreover, to constitute “adequate shelter,” the
placement “must be immediately available for 30
consecutive days or more,” “be open both days and
nights,” and “must provide a single-gender placement
for someone who objects to a mixed-gender
placement.”23 It will be difficult, if not impossible, to
meet these criteria for “adequate” shelter and to have
all these options provided by a jurisdiction and
available at all times.
In a settlement agreement in a case arising in
Southern California, Orange County must “ensure
appropriate due process protocols, including a timely
and effective administrative appeals process, for
homeless individuals being denied access to, or being
terminated from County-administered shelters” that
“comply and be otherwise consistent with local, state,
and federal laws.”24 Whether an individual has access
to adequate shelter thus becomes a matter for a quasijudicial determination, leaving law enforcement’s
22

Vannucci v. County of Sonoma, U.S. District Court, Case No. 18cv-01955 VC (N.D. Cal.), Dkt. #109-1. See p. 5 of 14.
23
24

Id. at p. 6 of 14.

Orange County Catholic Worker, et al. v. County of Orange, U.S.
District Court Case No. 8:18:cv-00155-DOC-JDE (C.D. Cal.), Dkt.
#318-1, p. 15.

22
hands tied while that process plays out, and adds
further costs to litigating those issues that could be
better spent providing direct services or housing.
III.

Martin’s Construction of Status, as
Opposed to Conduct, Leads to Untenable
Results

Further difficulties arise when local governments
consider Martin’s impact beyond ordinances that
prohibit camping. The decision is premised on its
assertion that “sitting, sleeping or lying outside on
public property for homeless individuals who cannot
obtain shelter” are the “‘unavoidable consequence of
being human.’” Martin, 920 F.3d at 616 (quoting
Jones, 444 F.3d at 1136). It reasoned: “[A]ny ‘conduct
at issue here is involuntary and inseparable from
status—they are one and the same, given that human
beings are biologically compelled to rest, whether by
sitting, lying, or sleeping.’” Id. at 617 (quoting Jones,
444 F.3d at 1136).
Under the Martin court’s reasoning, a municipality
may not be allowed to prosecute those who urinate,
defecate, or even engage in sexual activities in public,
since under the Ninth Circuit’s analysis those are
“unavoidable consequences of being homeless.” These
acts should not be beyond the reach of a government’s
police powers. Accord Martin, 920 F.3d at 590 (Smith,
J., dissent from denial of rehearing en banc (“the
panel’s reasoning will soon prevent local governments
from enforcing a host of other public health and safety
laws, such as those prohibiting public defecation and
urination”).

23
The Ninth Circuit’s decision narrowly identifies the
conduct at issue as “sitting, lying or sleeping” and
declares these acts to be “involuntary” and “inseparable
from status.” It concludes they are outside a city’s
authority to prosecute if there are a greater number of
homeless individuals in a city than the number of
available beds in shelters. This holding severely
misunderstands the public health and safety crisis
caused by illegal encampments and fails to recognize
what is occurring in many communities. Encampments
are often fraught with uncontained human waste,
garbage, illicit activity, and dangerous conditions that
violate universal social norms.
Many common
behaviors attendant to illegal camping cannot be
characterized as “the universal and unavoidable
consequences of being human.”
IV.

Responses to the Intractable Challenges of
Homelessness Are Best Addressed by
Policymakers

The problems created by the Ninth Circuit’s
decision underscore why local policymakers, not the
federal courts, should make decisions about how to
address homelessness in their communities. Local
governments are better equipped to evaluate the
immediate situation, to assess the resources available,
and to determine the most effective policy responses.
Indeed, another difficulty with the Ninth Circuit’s
approach is articulated in one of the opinions making
up the Powell plurality on which Martin relies: Justice
Black, in concurring, declined to extend the Eighth
Amendment to prevent criminalizing public
drunkenness because doing so “would significantly

24
limit the States in their efforts to deal with a
widespread and important social problem and would do
so by announcing a revolutionary doctrine of
constitutional law that would also tightly restrict state
power to deal with a wide variety of other harmful
conduct.” Powell, 392 U.S. at 536. He observed: “I
cannot say that the States should be totally barred
from one avenue of experimentation, the criminal
process, in attempting to find a means to cope with this
difficult social problem.” Id. at 539-40 (Black, J.,
concurring).
Judge Smith also expressed his concern about the
limits of judicial authority, explaining that the impact
of a local ordinance “‘should be addressed to the
Legislature and the [] Board of Supervisors, not the
judiciary. Neither the criminal justice system nor the
judiciary is equipped to resolve chronic social problems,
but criminalizing conduct that is a product of those
problems is not for that reason constitutionally
impermissible.’” Martin, 920 F.3d at 593 (dissent to
denial of rehearing en banc, quoting Tobe v. City of
Santa Ana, 9 Cal.4th 1069 (1995)).
Yet that is precisely what the Martin panel has
done. The Ninth Circuit ruling ignores this Court’s
instruction that federal courts “do not sit as a superlegislature to weigh the wisdom of legislation nor to
decide whether the policy which it expresses offends
the public welfare. The legislative power has limits …
[b]ut the state legislatures have constitutional
authority to experiment with new techniques; they are
entitled to their own standard of the public welfare ….”
Day-Brite Lighting Inc. v. State of Missouri, 342 U.S.

25
421, 423 (1952) (upholding criminal enforcement of
Missouri statute guaranteeing paid time off to vote).
Similarly, “[c]ourts may not create their own
limitations on legislation, no matter how alluring
the policy arguments for doing so, and no matter how
widely the blame may be spread.” Brogan v. United
States, 522 U.S. 398, 408 (1998).
The Martin decision is in conflict with other courts,
as set forth in the petition for review, including the
California Supreme Court decision Tobe v. City of
Santa Ana, 9 Cal.4th 1069 (1995). See Petition at pp.
19-21. In Tobe, the California Supreme Court upheld
a city’s no-camping ordinance against Eighth
Amendment challenge. Under the guise of applying
this Court’s Eighth Amendment jurisprudence, the
Ninth Circuit has constrained California cities more
than their own Supreme Court has done. Martin
thereby turns on its head the teaching that states
should “serve as ‘laborator[ies]’ of democracy.” Tenn.
Wine & Spirits Retailers Ass’n v. Thomas, 139 S. Ct.
2449, 2484, 204 L. Ed. 2d 801 (2019) (Gorsuch, J.,
dissenting) (quoting New State Ice Co. v. Liebmann,
285 U.S. 262, 311 (1932) (Brandeis, J., dissenting)).
Further, local governments have broad
responsibilities to their communities but have limited
resources. Providing sufficient beds to comply with
Martin could hijack municipal budgets well beyond
what is appropriate in light of other municipal
responsibilities. But if local governments do not
comply, they may be left with encampments that are
beyond their reach. See Martin, 920 F.3d at 595-96
(Smith, J., dissenting) (if local governments lack the

26
resources to provide housing, “[t]hey have no choice but
to stop enforcing laws that prohibit public sleeping and
camping” and “effectively allow[] homeless individuals
to sleep and live wherever they wish on most public
property”). The Petition should be granted because the
Martin court’s interpretation of the Eighth Amendment
yields untenable results for local governments
responsible for addressing homelessness and serving
their broader communities.
CONCLUSION
For the foregoing reasons, and those set forth in the
Petition, amici curiae respectfully request that this
Court grant the Petition for Certiorari.
Respectfully submitted,
RICHARD DOYLE
City Attorney
NORA FRIMANN
Assistant City Attorney
KATHRYN J. ZOGLIN
Senior Deputy City Attorney
Counsel of Record
MAREN J. CLOUSE
Senior Deputy City Attorney
Office of the City Attorney
200 East Santa Clara Street, 16th Floor
San José, California 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov
Counsel for Amici Curiae

